 SEMIANNUAL REPORT TO CONGRESS

       October 1, 2004 to March 31, 2005




                   NATIONAL
                  ENDOWMENT
                    FOR THE
                  HUMANITIES


  “Democracy demands wisdom and vision in its citizens”
National Foundation on the Arts and Humanities Act of 1965
                    THE OFFICE OF INSPECTOR GENERAL

                                 serves American taxpayers
                           by investigating reports of waste, fraud,
                        mismanagement, abuse, integrity violations or
                          unethical conduct involving federal funds.



                               To report any suspected activity
                     involving NEH programs, operations, or employees

                                      Call the OIG Hotline

                                         (202) 606-8423



                                        Mailing Address

                      Office of Inspector General — Hotline
                     National Endowment for the Humanities
                          1100 Pennsylvania Ave. N.W., Room 419
                                 Washington, DC 20506


                                     Fax:   (202) 606-8329


                              Electronic Mail Hotline: oig@neh.gov




Government employees are protected from reprisal

Caller can remain anonymous

Information is confidential



This report is also available on the NEH/OIG Website at http://www.neh.gov/whoweare/
oig.html
     NATIONAL                                                               OFFICE OF INSPECTOR GENERAL
     ENDOWMENT                                                              1100 PENNSYLVANIA AVE., NW
     FOR THE                                                                WASHINGTON, D.C. 20506
     HUMANITIES                                                             ROOM 419
                                                                            TELEPHONE(202) 606-8350
                                                                            FACSIMILE (202) 606-8329
                                                                            E-mail oig@neh.gov



                                           April 29, 2005

Honorable Bruce Cole
Chairman
National Endowment for the Humanities
Washington, D.C. 20506

Dear Chairman Cole:

I am pleased to provide you with the Office of Inspector General’s Semiannual Report to Con-
gress for the first half of fiscal year 2005.

The report is submitted in accordance with the Inspector General Act of 1978, as amended.
Section 5 of the Act requires that you submit this report, with your Report of Final Action, to
the appropriate committee or subcommittee of the Congress within 30 days of its receipt. The
report provides a summary of the activities of the OIG during the six- month period ended
March 31, 2005.

During the current period, we completed and issued reports concerning one internal review,
inspections of two grantees, one audit of costs claimed by a grantee, one quality review of a
grantee’s independent public accounting firm, and five reviews of grantee compliance with
salary and wage documentation and reporting requirements. In addition, one Single Audit Act
review and four overhead desk reviews were completed. In our investigations program, we
received six “Hotline” contacts. Two contacts are open at the end of this period. We also
closed out an investigation wherein we recovered $300,000 from a grantee.

I appreciate your support and look forward to working with you and all agency staff to further
our common purpose of assuring the effectiveness, efficiency and integrity of NEH’s contribu-
tions to the humanities.

                                             Sincerely,



                                             Sheldon L. Bernstein
                                             Inspector General
                                        TABLE OF CONTENTS



LETTER TO THE CHAIRMAN

THE NATIONAL ENDOWMENT FOR THE HUMANITIES…… ........................................                                     1

THE OFFICE OF INSPECTOR GENERAL.....................................................................                     1

AUDIT AND REVIEW ACTIVITIES ................................................................................             2

INVESTIGATIVE ACTIVITIES ……………………………………………………………………                                                                      7

OTHER ACTIVITIES.....................................................................................................   10

TABLE I - REPORTING REQUIREMENTS………………………………………………… .....                                                               11

TABLE II - INSPECTOR GENERAL-ISSUED REPORTS ................................................                            12
WITH QUESTIONED COSTS

TABLE III - INSPECTOR GENERAL-ISSUED REPORTS WITH ......................................                                12
RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE

GLOSSARY OF AUDIT TERMINOLOGY .......................................................................                   13
             THE NATIONAL ENDOWMENT FOR THE HUMANITIES
       In order to promote progress and scholarship in the humanities and the arts in the United States,
       Congress enacted the National Foundation on the Arts and the Humanities Act of 1965. This Act
       established the National Endowment for the Humanities as an independent grant -making agency of
       the federal government to support research, education, and public programs in the humanities.
       Grants are made through four divisions - Research Programs, Education Programs, Preservation and
       Access, and Public Programs -- and two offices -- Challenge Grants and Federal-State Partnership.
       The divisions and offices also administer the We the People: NEH’s American History initiative.

       The Act that established the National Endowment for the Humanities says "The term 'humanities'
       includes, but is not limited to, the study of the following: language, both modern and classical;
       linguistics; literature; history; jurisprudence; philosophy; archaeology; comparative religion; ethics; the
       history, criticism, and theory of the arts; those aspects of social sciences which have humanistic
       content and employ humanistic methods; and the study and application of the humanities to the
       human environment with particular attention to reflecting our diverse heritage, traditions, and history
       and to the relevance of the humanities to the current conditions of national life."



                            THE OFFICE OF INSPECTOR GENERAL
       The NEH Office of Inspector General was established April 9, 1989, in accordance with the Inspector
       General Act Amendment of 1988, (Public Law 100-504). In this legislation, Congress established
       Offices of Inspector General in several departments and in thirty-three agencies, including the NEH.
       The NEH Inspector General (IG) is appointed by the Chairman. The independence of the IG is an
       important aspect of the Act. For example, the IG:

       •    cannot be prevented from initiating, carrying out, or completing an audit or investigation, or from
            issuing any subpoena;

       •    has access to all records of the agency;

       •    reports directly to the Chairman, and can only be removed by the Chairman, who must promptly
            advise Congress of the reasons for the removal; and

       •    reports directly to Congress.

       The Act states that the Office of Inspector General is responsible for (1) conducting audits and investi-
       gations; (2) reviewing legislation; (3) recommending policies to promote efficiency and effectiveness;
       and (4) preventing and detecting fraud, waste, and abuse in the operations of the agency. The
       Inspector General is also responsible for keeping the Chairman and Congress fully and currently
       informed of problems and deficiencies in the programs and operations.

       The OIG staff consists of the Inspector General, a Deputy Inspector General, two auditors, and a
       secretary. The OIG and the Office of the General Counsel (OGC) have a Memorandum of
       Understanding detailing the procedures for the OIG to be provided with OGC legal services.
       Investigations are handled by the Inspector General, an auditor and as required by the agency’s
       Assistant General Counsel.




NEH OIG Semiannual Report                                      1                                                     March 2005
                                AUDIT AND REVIEW ACTIVITIES


                                         LIST OF REPORTS ISSUED
     This office is responsible for external and internal audits. External auditing includes grants, pre-
     award accounting system surveys, review of OMB Circular A-133 audit reports, overhead desk re-
     views, and on-site quality control reviews of CPA work papers. Internal efforts consist of audits,
     inspections, and reviews/evaluations of NEH administrative, programmatic, and financial operations.

     Following is a list of reports issued by the OIG during this reporting period. We also received 80
     OMB Circular A-133 audit reports and processed one containing findings (see Single Audit Act
     Reviews). The Inspector General Act of 1978, as amended, requires us to report on the "Dollar
     Value of Recommendations that Funds Be Put to Better Use" and the "Total Dollar Value of Ques-
     tioned Costs" (including a separate category for the “Dollar Value of Unsupported Costs”). One re-
     port had questioned costs (see Table II).


     INTERNAL AUDITS/REVIEWS                                            Report Number                 Date Issued

     Fiscal Year Ended September 30, 2004, Federal                      OIG-05-01 (IR)                03/18/05
     Managers’ Financial Integrity Act Review


     EXTERNAL AUDITS/REVIEWS/ INSPECTIONS

     Inspection ~ Accounting System of the Southeastern                 OIG-05-01 (I)                 03/02/05
     Library Network, Inc.(SOLINET), Atlanta, Georgia

     Inspection ~ Accounting System of AMIGOS                           OIG-05-02 (I)                 03/31/05
     Library Services (AMIGOS), Dallas, TX

     Audit ~ Close-out of NEH Grant Award to Thelonious Monk            OIG-05-01 (EA)                03/31/05
     Institute of Jazz, Washington, DC


     Quality Control Review of Alexander, Aronson, Finning &            OIG-05-101 (QCR)              12/04/04
     Co., Audit of the Northeast Document Conservation Center
     For the Fiscal Year Ended June 30, 2003


     Desk Reviews of the Documentation Related to Salaries &
     Wages Charged to NEH Grants:

                 National Humanities Center                             OIG-05-01 (DR)                03/18/05

                The Huntington Library                                  OIG-05-02 (DR)                03/21/05

                American Antiquarian Society                            OIG-05-03 (DR)                03/21/05

                Strong Museum                                           OIG-05-04 (DR)                03/18/05

                Oakland Museum                                          OIG-05-05 (DR)                04/16/05




NEH OIG Semiannual Report                                  2                                                March 2005
                            AUDIT AND REVIEW ACTIVITIES (Continued)

        SINGLE AUDIT ACT REVIEW

        Virgin Island Humanities Council                  OIG-05-01 (CAA)                  03/22/05

        OVERHEAD DESK REVIEWS

        Center for Research Libraries                     NEH-05-01 (ODR)                  12/16/04
        Huntington Library                                NEH-05-02 (ODR)                  02/05/05
        National Humanities Center                        NEH-05-03 (ODR)                  03/22/05
        Southeastern Library Network                      NEH-05-04 (ODR)                  03/30/05

                                            SUMMARY OF REPORTS ISSUED

                                                 INTERNAL AUDITS/REVIEWS

        We issued report OIG-05-01 (IR), Fiscal Year Ended September 30, 2004 Review of Compliance
        with the Federal Managers’ Financial Integrity Act (Integrity Act) on March 18, 2005. The pur-
        pose of our review was to determine whether information submitted by each division director/office
        head provided reasonable assurance to the Chairman that they complied with the Integrity Act. We
        found that the agency generally complied with the Integrity Act thereby giving the Chairman the neces-
        sary assurance that he can report the results to President Bush.

                                           EXTERNAL AUDITS/REVIEWS/ INSPECTIONS

        On March 2, 2005, we issued report OIG-05-01 (I), Results of Inspection of the Southeastern Li-
        brary Network’s (Solinet) accounting system and internal controls as they related to the manage-
        ment of NEH programs.

        The objective of this inspection was to determine the extent to which Solinet’s accounting system, in-
        ternal controls, and management policies provided reasonable assurance that NEH grant project
        funds are adequately managed and accounted for in accordance with the NEH requirements and ap-
        plicable Federal regulations.

        We found that the accounting system and the procedures in use at the time of our review were ade-
        quate for controlling and monitoring costs incurred by Solinet. Project accounting reports were pro-
        duced monthly or when needed. The reports segregated the disbursement of Federal funds from non-
        Federal cost share. A report comparing actual costs to those budgeted (Federal and non-Federal
        funds) was also produced. We also identified areas of noncompliance that require corrective action by
        Solinet. Our findings provide opportunities to improve the efficiency and effectiveness of certain finan-
        cial reporting areas.


        We issued report OIG-05-02 (I), Results of Inspection at Amigos Library Services, Inc., on March
        31, 2005.

        The objective of our inspection was to assess the adequacy of the accounting system maintained by
        Amigos Library Services, (Amigos), for identifying and charging costs to final cost objectives. Project
        activity during the period, July 1 1999 through June 30, 2004 was covered in our inspection.

        We found that the accounting system maintained by Amigos is adequate for purposes of identifying
        and charging costs to final cost objectives. Our inspection, however, generated recommendations to
        further strengthen the organization’s current accounting policies and procedures as they pertain to the
        identification and segregation of costs chargeable to NEH grants; the reconciliation of initial effort




NEH OIG Semiannual Report                                     3                                                     March 2005
                            AUDIT AND REVIEW ACTIVITIES (Continued)

     allocations to NEH awards (based on predetermined factors) to employee timesheets that document actual
     employee activity; and the disclosure of project costs during the preparation of interim and final financial
     reports to NEH. In addition, we identified an adjustment that may be necessary to costs associated with
     one NEH grant.

     We issued report OIG-05-01 (EA), Close -out Audit of NEH Grant Award to Thelonious Monk Institute
     of Jazz (TMIJ), on March 31, 2005.

     The objectives of the audit were to 1) assess the adequacy of TMIJ’s accounting system as it pertained to
     the NEH grant; 2) determine whether total project costs claimed on the final Financial Status Report (FSR)
     were allowable under applicable regulations and terms of the grant; 3) assess the adequacy of the man-
     agement policies supporting the financial information reported to NEH on the FSR and Federal Cash Trans-
     action Reports (FCTRs); and 4) determine the extent to which the project described in the NEH-approved
     grant application was actually accomplished.

     Based on our audit, we questioned $92,998 of the Federal funds disbursed and $55,506 of the cost-sharing
     disbursements that were not adequately documented. TMIJ officials and staff did not review the various
     Office of Management and Budget (OMB) Circulars, NEH General Grant Provisions, and other procedures
     provided with the award documents. We also found that the accounting system and TMIJ’s management
     procedures were not adequate to support the amount reported on the FSR or to properly control and moni-
     tor the NEH-supported project. TMIJ did not complete the project as proposed in the approved application.
     In addition we found that they changed the scope of the project and key personnel without informing or re-
     questing approval from NEH.


     On December 4, 2004, we issued report OIG-05-101 (QCR), Review of Alexander, Aronson, Finning &
     Co. (AAF) Audit of the Northeast Document Conservation Center (NEDCC) for the Fiscal Year Ended
     June 30, 2003.

     The objectives of the quality control review were to ensure that the audit was conducted in accordance with
     Government Auditing Standards (GAS) and meets the single audit requirements; identify any follow-up
     work needed; and identify issues that may require the attention of National Endowment for the Humanities
     management. We evaluated the qualifications and independence of the audit staff; reviewed the financial
     statements and AAF’s reports to evaluate compliance with GAS and OMB Circular A-133; and reviewed
     and tested AAF’s workpapers.

     We found that the financial statement audit of the NEDCC for the year ended June 30, 2003 was generally
     conducted in accordance with GAS. We found nothing during our review to indicate that AAF’s opinion on
     NEDCC’s financial statements for the fiscal year ended June 30, 2003 is inappropriate or cannot be relied
     on. However, AAF’s reports on compliance with requirements applicable to major programs and the
     Schedule of Findings and Questioned Costs were not acceptable given that material weaknesses and non-
     compliance matters were detected but not disclosed in the report. Therefore, we opined that the audit did
     not, in all respects, meet the single audit requirements.




NEH OIG Semiannual Report                                    4                                                March 2005
                            AUDIT AND REVIEW ACTIVITIES (Continued)

                       DESK REVIEWS OF DOCUMENTATION RELATED TO SALARIES AND
                                   WAGES CHARGED TO NEH GRANTS

     The purpose of these reviews was to determine if the grantees’ time and effort accounting policies and
     procedures meet OMB Circular A-122 requirements. The reviews were performed in accordance with the
     President’s Council on Integrity and Efficiency, Quality Standards for Inspections. We selected grantees,
     excluding state humanities councils, that received significant funding during the past several years.

     We found that not one of the five grantees reviewed had a system that meets all of OMB Circular A-122
     requirements. The OIG will be working with the grantees that we reviewed until they are able to substan-
     tiate that their time and effort reports, procedures, and accounting system accurately account for salaries
     and wages claimed on Federal reports. Each grantee had one or more of the following deficiencies with
     their time and effort reporting system.

     1. RE: Time and effort reports.

              a) Reports did not account for 100 percent of employee effort.

              (b) Reports were not signed by employee or supervisor.

              (c) Reports were not dated or were dated weeks after the payroll period. For example,

                   period ends on January 15th and reports signed on February 8th.

              (d) Reports did not coincide with grantee pay periods.

              (e) Reports reflected mathematical errors.

     2. Employees recorded budgetary estimates on time and effort reports in lieu of actual activity,

         (including administrative staff).

     3. NEH-funded effort was properly documented; however, accounting for cost-sharing effort

         was inadequate.

     4. Salaries posted to the general ledger were not based on the time and effort reports.


     We made various recommendations to each grantee that would bring them into compliance with the OMB
     Circular. All have agreed to implement our recommendations.




NEH OIG Semiannual Report                                    5                                                 March 2005
                            AUDIT AND REVIEW ACTIVITIES (Continued)


                                                             SINGLE AUDIT ACT REVIEWS


          In fiscal year 2004, the NEH spent approximately 85 percent of its annual expenditures on grantees.
          Many of the NEH grantees are covered by the Single Audit Act Amendment of 1996. Grantees expend-
          ing $500,000 or more in Federal dollars per annum are required to obtain an OMB Circular A-133 audit.1
          The OIG receives OMB Circular A-133 reports from other Federal agencies (mainly the Department of
          Health and Human Services), state and local government auditors, and independent public accountants.
          The objective of the audit is to determine whether Federal funds are expended in accordance with appli-
          cable laws and regulations.

          During the six-month period ended March 31, 2005, we reviewed 80 OMB Circular A-133 audit reports.
          One of the reports contained audit findings and a summary of the report was issued to NEH for action
          and follow-up.


                                                              OVERHEAD DESK REVIEWS



          The NEH~OIG performs overhead desk reviews (ODRs) for grantees requiring indirect cost rates. The
          reviews are done in accordance with the President’s Council on Integrity and Efficiency, Quality Stan-
          dards for Inspections. The OIG sends the results of the ODRs to the Assistant Chairman for Planning
          and Operations, who negotiates the indirect cost rates with the grantees. We completed four reviews
          during this period, (see page 3).


                                                          AUDITS/REVIEWS IN PROGRESS


                                        United States Accountability of Tax Dollars Act of 2002

          The Accountability of Tax Dollars Act of 2002 requires NEH, as well as several other small agencies and
          commissions, to prepare and submit to the Congress and the Director of the U.S. Office of Management
          and Budget an audited financial statement. NEH received a written waiver from OMB for fiscal year
          2003 and a verbal waiver for fiscal year 2004. During the six-month period ended March 31, 2005, the
          NEH~OIG obtained the services of an independent public accounting firm (IPA). The IPA began an as-
          sessment of the financial management systems and internal controls at NEH to identify weaknesses that
          could have a direct and significant effect on the financial statement audit. Also, during this period, OIG
          staff continued to take training to provide adequate management oversight of the audit.




                    1 Effective for years ending after December 31, 2003, the threshold was increased from $300,000 to $500,000. An audit is mandatory when a
                    grantee expends $500,000 of federal funds, cumulative from all federal sources, in its fiscal year.




NEH OIG Semiannual Report                                                        6                                                                          March 2005
                                     INVESTIGATIVE ACTIVITIES

                                                      BACKGROUND

       The Inspector General Act provides the authority for the Office of Inspector General to investigate
       possible violations of criminal or civil laws, administrative regulations, and agency policies, which relate
       to the programs and operations of the NEH. The OIG Hotline, e-mail address, and regular mail are
       efficient and effective means of receiving allegations or complaints from employees, grantees,
       contractors, and the general public. The OIG has obtained assistance from other OIGs, the Federal
       Bureau of Investigation, the Postal Inspection Service, and other investigative entities as necessary.

       When the OIG receives a complaint or allegation of a criminal or administrative violation, we make a
       determination of the appropriate action to take. This can be an audit, an investigation, a referral to
       another NEH office or division, or a referral to another Federal agency.

       As of October 1, 2004, six files were open. During the six months ended March 31, 2005, we received
       six “Hotline" contacts. We are holding two matters open at March 31, 2005.


                                             OPEN AT OCTOBER 1, 2004

       One case involved a grantee institution and a project director who may have provided false information
       in grant applications. Following NEH’s Policy of Research Misconduct, we asked the organization to
       perform an internal investigation and report to the OIG. The organization recently submitted the report
       and our review is in progress. The IG has the authority to accept, reject, or perform additional work as
       necessary. This matter will be resolved during the next reporting period.

       One case concerned a grantee in the New England area that submitted a number of incorrect financial
       reports. NEH auditors questioned $300,000 of costs documented to substantiate a challenge grant.
       The grantee returned the $300,000 and NEH collected an additional $10,000 to cover some expenses.
       This case is now closed.

       One matter was referred by the Government Accountability Office (GAO) in August 2004. This involved
       an anonymous e-mail that contained six allegations of wrong doing at NEH. Our investigation found that
       the allegations contained no merit and we closed our file.

       An allegation that a grantee had misused funds for overseas travel; however, the person making the
       allegation did not know if Federal funds were involved. We found that the overseas travel was sup-
       ported by non-Federal funds and was not charged to the NEH grant. We learned that the grantee used
       funds received from a foundation for the travel activity and the foundation deemed the travel to be an
       allowable use of the funds.

       One complaint involved an NEH challenge grant. The NEH grant was to be used for building an endow-
       ment and we found that NEH funds were not used improperly. We closed our file although we continue
       to receive complaints from the person who made the original allegation. The complaints do not involve
       NEH funds.

       An anonymous allegation that a grantee misappropriated NEH funds and the grantee had discontinued
       operations. Our initial review of the matter determined that it would not be cost-effective to pursue this
       case. Therefore, we closed our file.




NEH OIG Semiannual Report                                      7                                                  March 2005
                            INVESTIGATIVE ACTIVITIES (Continued)


                                         CONTACTS DURING THE PERIOD

      We received six contacts during this reporting period. Two concerned internal matters, one concerned
      an external matter, and three contacts were referred to other Federal agencies. We looked into one of
      the internal matters and found that the allegation had no merit. The second internal matter has been
      referred to the Audit Division. The external issue concerned a teacher at a summer institute not attend-
      ing classes. We have made a preliminary inquiry.


                             MATTERS REFERRED TO PROSECUTIVE AUTHORITIES

     None during this period.


                                    HOTLINE AND PREVENTION ACTIVITIES

     We maintain a local Hotline phone number, agency e-mail address, and an Internet address to provide
     additional confidentiality for those persons bringing matters to the attention of the OIG. We continue to
     issue agency-wide e-mail messages informing NEH staff of violations that should be reported to the OIG.
     We also send e-mail messages several times during the year to inform NEH staff about the OIG
     operations. Posters advising staff to contact the OIG are displayed throughout the agency’s facilities.


                                              ANONYMOUS E-MAIL

     We have on the NEH Intranet and the Internet a system for staff, grantees, contractors, etc. to report
     waste, fraud, abuse, and mismanagement in an anonymous manner.




NEH OIG Semiannual Report                                    8                                                March 2005
                            INVESTIGATIVE ACTIVITIES (Continued)


                                   SUMMARY OF INVESTIGATION ACTIVITY



                                    Open at beginning of period       6


                                  Matters brought to the OIG during
                                         the reporting period         6


                                     Total investigative contacts     12

                                      Closed or referred during
                                        the reporting period          10


                                       Open at end of period          2




NEH OIG Semiannual Report                              9                   March 2005
                                          OTHER ACTIVITIES

                                     PARTICIPATION ON THE EXECUTIVE COUNCIL ON
                                              INTEGRITY AND EFFICIENCY

       The Executive Council on Integrity and Efficiency (ECIE) was established by the President in 1992
       to coordinate and implement government-wide activities to combat fraud and waste in Federal
       programs and operations. OIG staff regularly attend ECIE meetings and provide information to the
       ECIE.

                                       REGULATORY AND LEGISLATIVE REVIEWS


       The Inspector General Act of 1978, as amended, requires the Office of Inspector General to review
       proposed legislation and regulations. The reviews are made to assess whether the proposed legisla-
       tion and/or regulations (1) impact on the economy and efficiency of agency programs and operations,
       and (2) contain adequate internal controls to prevent and detect fraud and abuse. During this period,
       we provided the ECIE with comments on various matters affecting the Inspector General community.



                                              WORKING WITH THE AGENCY

        In this period, OIG staff attended and engaged in various NEH meetings - panel meetings (where
        grant applications are reviewed by outside consultants), pre-council meetings (where program staff
        discuss panel review results with the chairman and his immediate staff), and the National Council
        meeting. In addition, the IG and Deputy IG attended the Chairman's monthly policy group meetings.
        An OIG staff person attended monthly NEH Employee Association meetings. OIG staff was also in-
        volved in the review of NEH administrative directives.

        The Office of Inspector General contributes to the discussions; however, the office does not partici-
        pate in policy making.


                                           OIG INTERNET AND INTRANET

        The OIG has listed several semiannual reports on the Internet. The reports are accessible through the
        NEH homepage and the OIG homepage (http://www. neh.gov/whoweare/OIG.html).

        To enhance the NEH staff's recognition of the OIG mission and responsibilities, we provide links to
        several other Federal agencies such as the Office of Management and Budget, the General
        Accountability Office, the Office of Government Ethics, and the IGNET.


                                           TECHNICAL ASSISTANCE

        Throughout the reporting period, OIG staff provided telephone technical assistance to NEH grantees
        and independent public accountants concerning various matters including the preparation of indirect
        cost proposals and the implementation of Federal audit requirements.




NEH OIG Semiannual Report                                   10                                                  March 2005
                                                  TABLE I

                               REPORTING REQUIREMENTS


       The Inspector General Act of 1978, as amended (Public Law 100-504), specifies reporting
       requirements for semiannual reports. The requirements are listed and cross-referenced to the
       applicable pages in this report.


       IG Act Reference       Reporting Requirements                                          Page

       Section 4(a)(2)        Regulatory and Legislative Reviews………………………………                  10

       Section 5(a)(1)        Significant Problems, Abuses, and Deficiencies…………………           *

       Section 5(a)(2)        Recommendations for Corrective Action ………………………… *

       Section 5(a)(3)        Prior Significant Recommendations Unimplemented…………… *

       Section 5(a)(4)        Matters Referred to Prosecutive Authorities……………………… 8

       Section 5(a)(5)        Instances Where Information Was Refused or Not Provided…… *

       Section 5(a)(6)        List of Audit Reports Issued………………………………………… 2

       Section 5(a)(7)        Summary of Significant Reports…………………………………… 3-6

       Section 5(a)(8)        Audit Reports - Questioned Costs….……………………………… 12

       Section 5(a)(9)        Audit Report - Funds To Be Put to Better Use.…….…………….. 12

       Section 5(a)(10)       Prior Audit Reports Unresolved…………………………………..… *

       Section 5(a)(11)       Significant Revised Management Decisions………………………. *

       Section 5(a)(12)       Significant Management Decisions with which OIG Disagreed…..*



       * None this period




NEH OIG Semiannual Report                                 11                                          March 2005
                                                                      TABLE II
                                                         INSPECTOR GENERAL-ISSUED REPORTS
                                                               WITH QUESTIONED COSTS


                                                                                                         Number     Questioned    Unsupported
                                                                                                       Of Reports    Cost           Cost
         A. For which no management decision has been made by the                                         -0-       $ -0-         $ -0 -
            commencement of the reporting period.


         B. Which were issued during the reporting period.                                                  1       $ 92,998      $ 55,506


                                                 Subtotals (A+B)                                            1       $ 92,998      $ 55,506


         C. For which a management decision was made during
            the reporting period.

                  i.    Dollar value of disallowed costs.                                                 -0 -      $ -0 -        $ -0-


                  ii.   Dollar value of costs not disallowed (grantee                                     -0 -      $ -0 -        $ -0-
                        subsequently supported all costs).


         D. For which no management decision has been made by the                                           1       $ 92,998      $ 55,506
            end of the reporting period.


         E. Reports for which no management decision was made within                                        1       $ 92,998      $ 55,506
            six months of issuance.


                                                            TABLE III
                                                INSPECTOR GENERAL-ISSUED REPORTS
                                       WITH RECOMMENDATIONS THAT FUNDS BE PUT TO BETTER USE


                                                                                                                             Number        Dollar 1
                                                                                                                             Of Reports    Value

         A. For which no management decision has been made by the commencement                                                   -0 -      $-0 -
            of the reporting period.

         B. Which were issued during the reporting period.                                                                        1        $ 300,000

         C. For which a management decision was made during the reporting period.                                                 1        $ 300,000

                  i. Dollar value of recommendations that were agreed to by management.                                                    $ 300,000

                  ii. Dollar value of recommendations that were not agreed to by                                                           $-0 -
                      management.

         D. For which no management decision was made by the end of the reporting period.                                        -0 -      $-0 -


                        1
                            This is the result of an investigation that required auditor input.




NEH OIG Semiannual Report                                                                         12                                       March 2005
                            GLOSSARY OF AUDIT TERMINOLOGY


        Questioned Cost - A cost that is questioned by the OIG because of an alleged violation of a provision
        of a law, regulation, contract, grant, cooperative agreement, or other agreement or document
        governing the expenditure of funds; because such cost is not supported by adequate documentation;
        or because the expenditure of funds for the intended purpose is unnecessary or unreasonable.

        Unsupported Cost - A cost that is questioned because of the lack of adequate documentation at the
        time of the audit.

        Disallowed Cost - A questioned cost that management, in a management decision, has sustained or
        agreed should not be charged to the government.

        Funds Be Put To Better Use - Funds, which the OIG has disclosed in an audit report, that could be
        used more efficiently by reducing outlays, de-obligating program or operational funds, avoiding
        unnecessary expenditures, or taking other efficiency measures.

        Management Decision - The evaluation by management of the audit findings and recommendations
        and the issuance of a final decision by management concerning its response to such findings and
        recommendations.

        Final Action - The completion of all management actions, as described in a management decision,
        with respect to audit findings and recommendations. When management concludes no action is
        necessary, final action occurs when a management decision is made.

        Source: Excerpt from Section 106(d) of the Inspector General Act Amendments of 1988 (P.L. 100-
        504).




NEH OIG Semiannual Report                                  13                                             March 2005
